—S
\

OCKLE

2311 Douglas Street CA : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 * www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

PHILIP PALADE, On Behalf of Himself and all Others Similarly Situated;
GREGORY BORSE, On Behalf of Himself and all Others Similarly Situated;
J. THOMAS SULLIVAN, On Behalf of Himself and all Others Similarly Situated,
Petitioners,
v.

BOARD OF TRUSTEES UNIVERSITY OF ARKANSAS SYSTEM; EDWARD O. FRYAR, JR.,
PH.D., In his Official Capacity as Trustee; STEVE COX, In his Official Capacity as Trustee;
TOMMY BOYER, In his Official Capacity as Trustee; SHEFFIELD NELSON,

In his Official Capacity as Trustee; C. C. GIBSON, In his Official Capacity as Trustee;
STEPHEN BROUGHTON, M.D., In his Official Capacity as Trustee; KELLY EICHLER,

In her Official Capacity as Trustee, MORRIL HARRIMAN, In his Official Capacity as Trustee;
MARK WALDRIP, In his Official Capacity as Trustee, JOHN GOODSON,

In his Official Capacity as Trustee,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7306 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of June, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska &v a Z d,
RENEE J: GOSS 0. ( dude ‘.
Notary Public

 

My Comm. Exp. September 5, 2023
Affiant 41043
